TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Fiscal Year 2012 Statutory Review of
                    Compliance With Legal Guidelines When
                                Issuing Levies



                                         August 17, 2012

                              Reference Number: 2012-30-095




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                    HIGHLIGHTS


FISCAL YEAR 2012 STATUTORY                             appeal rights at least 30 calendar days prior to
REVIEW OF COMPLIANCE WITH LEGAL                        the issuance of the levies. In addition, TIGTA
GUIDELINES WHEN ISSUING LEVIES                         identified and reviewed 59 manual levies issued
                                                       by IRS employees on those same systems and
                                                       determined that all taxpayers were given notice
Highlights                                             of their appeal rights at least 30 calendar days
                                                       prior to issuance of the levies.
Final Report issued on August 17, 2012                 WHAT TIGTA RECOMMENDED
Highlights of Reference Number: 2012-30-095            Although TIGTA made no recommendations in
to the Internal Revenue Service Commissioner           this report, IRS officials were provided with an
for the Small Business/Self-Employed Division.         opportunity to review the draft report. IRS
                                                       management did not provide any report
IMPACT ON TAXPAYERS                                    comments.
The IRS Restructuring and Reform Act of 1998
requires the IRS to notify taxpayers of the intent
to levy at least 30 calendar days before initiating
any levy action to give taxpayers an opportunity
to formally appeal the proposed levy. TIGTA
determined that the IRS has sufficient controls in
place to ensure that taxpayers are advised of
their right to a hearing at least 30 calendar days
prior to levy action.
WHY TIGTA DID THE AUDIT
When taxpayers do not pay delinquent taxes,
the IRS has the authority to work directly with
financial institutions and other third parties to
seize taxpayers’ assets. This action is
commonly referred to as a “levy.”
This audit was initiated because TIGTA is
responsible for annually determining whether the
IRS complied with the IRS Restructuring and
Reform Act of 1998 requirement that the IRS
notify taxpayers prior to issuing levies. This is
the fourteenth audit report on this subject area.
The overall objective of this review was to
determine whether the IRS has complied with
Internal Revenue Code Section 6330, Notice
and Opportunity for Hearing Before Levy.
WHAT TIGTA FOUND
The IRS is protecting taxpayers’ rights
when issuing systemically generated and
manually prepared levies. TIGTA reviewed
30 systemically generated levies identified
through the Automated Collection System and
the Integrated Collection System and
determined that systemic controls were effective
to ensure taxpayers were given notice of their
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                August 17, 2012


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                        Michael E. McKenney
                              Acting Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Fiscal Year 2012 Statutory Review of Compliance
                              With Legal Guidelines When Issuing Levies (Audit # 201230003)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has complied with Internal Revenue Code Section 6330, Notice and Opportunity for
 Hearing Before Levy.1 This audit is statutorily required each fiscal year. This review is part of
 our Fiscal Year 2012 Annual Audit Plan and addresses the major management challenge of
 Taxpayer Protection and Rights.
 Although we made no recommendations in this report, we did provide IRS officials with an
 opportunity to review the draft report. IRS management did not provide us with any report
 comments.
 Copies of this report are also being sent to the IRS managers affected by this report.
 Please contact me at (202) 622-6510 if you have questions or Frank Dunleavy, Acting
 Assistant Inspector General for Audit (Compliance and Enforcement Operations), at
 (213) 894-4470 (Ext. 128).




 1
  I.R.C. § 6330 (Supp. IV 2010) as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the Job
 Creation and Worker Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21 (codified in scattered sections of
 26 U.S.C., 29 U.S.C., and 42 U.S.C.); the Victims of Terrorism Tax Relief Act of 2001, Pub. L. No. 107-134,
 115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554, 114 Stat. 2763.
                        Fiscal Year 2012 Statutory Review of Compliance With Legal
                                      Guidelines When Issuing Levies




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Controls Implemented to Protect Taxpayer Rights During the Issuance
          of Systemic Levies Operated Effectively ..................................................... Page 3
          Employees Timely Notified Taxpayers of Their Appeal Rights Prior to
          Issuing Manual Levies .................................................................................. Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 6
          Appendix II – Major Contributors to This Report ........................................ Page 8
          Appendix III – Report Distribution List ....................................................... Page 9
          Appendix IV – Example of a Levy (Form 668-B) ........................................ Page 10
          Appendix V – Previous Audit Reports Related to This
          Statutory Review ........................................................................................... Page 11
         Fiscal Year 2012 Statutory Review of Compliance With Legal
                       Guidelines When Issuing Levies




                       Abbreviations

ACS              Automated Collection System
ICS              Integrated Collection System
I.R.C.           Internal Revenue Code
IRS              Internal Revenue Service
RRA 98           Restructuring and Reform Act of 1998
TIGTA            Treasury Inspector General for Tax Administration
                    Fiscal Year 2012 Statutory Review of Compliance With Legal
                                  Guidelines When Issuing Levies




                                            Background

When taxpayers do not pay delinquent taxes, the Internal Revenue Service (IRS) has the
authority to work directly with financial institutions and other third parties to seize taxpayers’
monetary assets. This action is commonly referred to as a “levy” (see Appendix IV for an
example of a Levy (Form 668-B)). The IRS Restructuring and Reform Act of 1998 (RRA 98)1
created the provisions of Internal Revenue Code (I.R.C.) Section (§) 63302 that requires the IRS
to notify the taxpayer of the intention to levy at least
30 calendar days before initiating a levy action to give
the taxpayer an opportunity to formally appeal the             The Treasury Inspector General
proposed levy.                                                for Tax Administration is required
                                                                     to annually verify whether the IRS
The RRA 98 also requires the Treasury Inspector                        is complying with the RRA 98
General for Tax Administration (TIGTA) to annually                   requirement to notify the taxpayer
                                                                         of the intent to levy at least
verify whether the IRS is complying with the levy                    30 calendar days before initiating
provisions. This is the fourteenth year in which we                              a levy action.
have evaluated the IRS controls over levies.
To collect delinquent taxes, the IRS issues levies, either systemically or manually, by two
operations within the IRS:
       The Automated Collection System (ACS), where customer service representatives
        contact delinquent taxpayers by telephone to collect unpaid taxes and secure tax returns.
       The Collection Field function, where revenue officers contact delinquent taxpayers in
        person. Delinquent cases assigned to revenue officers in the field offices are controlled
        and monitored with the automated Integrated Collection System (ICS).
Previous TIGTA audit reports3 have recognized that the IRS has significantly improved controls
over the issuance of systemically generated levies. This is primarily due to the development of
systemic controls in both the ACS and the ICS. Based on previous audit results, we consider
these controls to be strong. Therefore, we reviewed only limited samples of systemic levies to
ensure that the controls were still effective.

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  I.R.C. § 6330 (Supp. IV 2010) as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the Job
Creation and Worker Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21 (codified in scattered sections of
26 U.S.C., 29 U.S.C., and 42 U.S.C.); the Victims of Terrorism Tax Relief Act of 2001, Pub. L. No. 107-134,
115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554, 114 Stat. 2763.
3
  See Appendix V for a list of previous audit reports related to this review.

                                                                                                          Page 1
                 Fiscal Year 2012 Statutory Review of Compliance With Legal
                               Guidelines When Issuing Levies



TIGTA audit reports issued prior to Fiscal Year 2005 reported that additional controls were
needed over manual levies issued by revenue officers. Since then, we have reported that revenue
officers properly notified taxpayers of their right to a hearing when issuing manual levies.
However, we still consider manual levies to be high risk and will continue to test them.
This review was performed at the Small Business/Self-Employed Division Headquarters
Collection function office in New Carrollton, Maryland, during the period April through
July 2012. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                        Page 2
                        Fiscal Year 2012 Statutory Review of Compliance With Legal
                                      Guidelines When Issuing Levies




                                         Results of Review

Controls Implemented to Protect Taxpayer Rights During the Issuance
of Systemic Levies Operated Effectively
Our review of systemically generated levies showed that
taxpayers’ rights were protected. The IRS gave taxpayers                                Taxpayers were given
notice of their appeal rights at least 30 calendar days prior                           notice of their appeal
to the issuance of the levies.                                                          rights when systemic
                                                                                          levies were issued.
ACS systemic controls are effective
The first step in the collection process involves mailing taxpayers a series of notices asking for
payment of delinquent taxes. If taxpayers do not comply, the majority of the accounts are
forwarded to an ACS Call Center where customer service representatives contact taxpayers by
telephone to resolve their accounts. If the accounts cannot be resolved, these representatives
have the authority to issue levies.
Virtually all levies issued by customer service representatives are generated through the ACS,
which contains a control developed to comply with the RRA 98. The control compares the date
that the taxpayer was notified of the pending levy with the date requested to actually issue the
levy. If there are fewer than 30 calendar days between the dates, the ACS will not generate a
levy. This control is designed to ensure that taxpayers are notified of their appeal rights at least
30 calendar days prior to the issuance of any systemically generated levies.
We tested the effectiveness of this control by reviewing a judgmental sample4 of 15 levies issued
through the ACS between July 1, 2010, and September 30, 2011. We compared the date of the
final notification letter to the date the levy was issued and found that all 15 taxpayers were
timely notified of their appeal rights. Therefore, we believe that the ACS systemic control
effectively protected taxpayers’ appeal rights.

ICS systemic controls are effective
Many times notices and telephone calls to taxpayers do not successfully resolve delinquent
accounts, and cases have to be assigned to revenue officers in Collection Field function offices
for face-to-face contact with taxpayers. Cases assigned to Collection Field function revenue
officers are controlled on the ICS. Revenue officers use the ICS to record collection activity on
delinquent cases and to generate enforcement actions such as levies.

4
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 3
                     Fiscal Year 2012 Statutory Review of Compliance With Legal
                                   Guidelines When Issuing Levies



The IRS installed a control in the ICS similar to the control in the ACS that prevents levies from
being issued unless taxpayers have received 30 calendar days’ notice and have been informed of
their appeal rights. If fewer than 30 calendar days have elapsed since the final notice date, the
ICS will not generate a levy.
We tested the effectiveness of this control by reviewing a judgmental sample of 15 systemically
generated levies issued through the ICS between July 1, 2010, and September 30, 2011. We
compared the date of the final notification letter to the date the levy was issued and found that all
15 taxpayers were timely notified of their appeal rights. Therefore, we believe that the systemic
control over levies issued by revenue officers in Collection Field function offices effectively
protected taxpayers’ appeal rights.

Employees Timely Notified Taxpayers of Their Appeal Rights Prior to
Issuing Manual Levies
Although ACS customer service representatives primarily issue levies systemically, they may
also request the issuance of manual levies through the ACS under certain circumstances, such as
in jeopardy situations.5 Manual levies require the same advance notification to the taxpayer as
systemic levies, except in cases involving jeopardy situations. IRS procedures require that
manual levies issued by ACS customer service representatives be reviewed and approved by a
manager prior to the levies being issued. We consider these managerial reviews to be an
effective control.
We analyzed the ACS case history narratives input
by customer service representatives to identify any
manual levies issued through the ACS between               Our review of 29 ACS and 30 ICS
July 1, 2010, and September 30, 2011. We estimate           manual levies determined that
that customer service representatives manually                the IRS generally protected
generated about 23 percent of all levies issued through        taxpayers’ appeal rights.
the ACS during our audit period. Because there is no
automated audit trail produced for manual levies, we
used employee and action codes6 as the basis to identify any potential manual levies issued
through the ACS. Our review of a judgmental sample of 29 manual levies issued by ACS
customer service representatives showed that the IRS timely notified taxpayers of their appeal
rights.




5
  A jeopardy situation occurs when the IRS is concerned that the taxpayer may attempt to hide or dispose of assets to
prevent enforced collection actions.
6
  The action code shows what action was taken, such as a levy. The employee code shows whether there was a
system-generated action or an employee-generated action.
                                                                                                             Page 4
                  Fiscal Year 2012 Statutory Review of Compliance With Legal
                                Guidelines When Issuing Levies



Similarly, revenue officers mostly issue systemic levies through the ICS, but are also authorized
to issue manual levies on any case as needed. Because the ICS does not control revenue officer
generated manual levies, it is difficult to reliably determine their exact number. However, we
estimate that manual levies were less than 1 percent of all levies issued by revenue officers
during our review period.
While managerial approval is mandatory for manual levies issued by customer service
representatives through the ACS, no managerial review or approval is required in most cases
when revenue officers issue manual levies. As a result, we believe there is still a high risk
associated with manual levies issued by revenue officers.
We analyzed the ICS case history narratives to identify any mention of revenue officer issued
manual levies between July 1, 2010, and September 30, 2011. Using this methodology, we
identified and reviewed a judgmental sample of 30 cases in which revenue officers issued
manual levies to seize the monetary assets of taxpayers. In all 30 cases, taxpayers received
timely notification of their appeal rights.




                                                                                           Page 5
                     Fiscal Year 2012 Statutory Review of Compliance With Legal
                                   Guidelines When Issuing Levies



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has complied with
I.R.C. § 6330, Notice and Opportunity for Hearing Before Levy.1 To accomplish our objective,
we:
I.       Determined whether manual levies issued by both revenue officers and ACS2 function
         customer service representatives complied with legal guidelines in I.R.C. § 6330.
         A. Identified any references to manual levies issued between July 1, 2010, and
            September 30, 2011, by querying the history narrative text field of the ICS3 open case
            inventories. We identified 51 potential manual levies involving 42 taxpayers and
            reviewed a judgmental sample4 of 30 manual levies from the open ICS cases. We
            used judgmental sampling because we could not systemically identify the population
            of manual levies issued. We can reasonably estimate that manual levies represent less
            than 1 percent of total levies5 issued by revenue officers.
         B. Selected a judgmental sample of 29 manual levies from 325,158 employee-requested
            levies, involving 210,246 taxpayers, on the ACS between July 1, 2010, and
            September 30, 2011. We used judgmental sampling because we did not intend to
            project the results of our sample to the population. We used the employee and action
            codes6 on the ACS to identify the manual levies.
         C. Requested and analyzed case histories for all cases containing references to manual
            levies identified in Steps I.A. and I.B.




1
  I.R.C. § 6330 (Supp. IV 2010) as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the Job
Creation and Worker Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21 (codified in scattered sections of
26 U.S.C., 29 U.S.C., and 42 U.S.C.); the Victims of Terrorism Tax Relief Act of 2001, Pub. L. No. 107-134,
115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554, 114 Stat. 2763.
2
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
3
  An automated system used to control and monitor delinquent cases assigned to revenue officers in the field offices.
4
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
5
  There was a total of 547,344 levies issued by revenue officers. This total included 51 manual levies and 547,293
systemic levies. The total number of manual levies accounted for substantially less than 1 percent (51/547,344) of
the total population of levies issued by revenue officers.
6
  The action code shows what action was taken, such as a levy. The employee code shows whether there was a
system-generated action or an employee-generated action.
                                                                                                             Page 6
                     Fiscal Year 2012 Statutory Review of Compliance With Legal
                                   Guidelines When Issuing Levies



        D. Reviewed case history documentation and identified whether a revenue officer or an
           ACS customer service representative had issued a manual levy.
        E. Analyzed Master File7 transcripts and ACS and ICS case history narratives to
           determine whether taxpayers were provided at least 30 calendar days’ notice prior to
           any levy actions initiated by the IRS.
II.     Determined whether the IRS maintains sufficient automated controls and procedures to
        ensure that taxpayers are advised of their right to a hearing at least 30 calendar days prior
        to any levy action by testing systemically generated levies.
        A. Selected judgmental samples of 15 ACS levies from the population of
           1,094,358 systemic levies, involving 653,382 taxpayers, and 15 ICS levies from the
           population of 547,293 systemic levies, involving 99,352 taxpayers, issued between
           July 1, 2010, and September 30, 2011, from the ACS and ICS databases of open cases
           maintained in the TIGTA Data Center Warehouse.8 We did not plan to use statistical
           sampling because, based on prior years’ testing, we did not anticipate finding any
           errors and the controls are strong.
        B. Analyzed Master File transcripts and case histories as necessary to verify that
           taxpayers were advised of their right to a hearing at least 30 calendar days prior to
           any levy action.
III.    Validated data from the ACS and ICS by relying on the TIGTA Data Center Warehouse
        site procedures that ensure that data received from the IRS are valid. The Data Center
        Warehouse performs various procedures to ensure that it receives all the records in the
        ACS, ICS, and IRS databases. In addition, we scanned the data for reasonableness and
        are satisfied that the data are sufficient, complete, and relevant to the review. All the
        levies identified are in the appropriate period, and the data appeared to be logical.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Small Business/Self-Employed
Division Collection function’s automated controls in place that prevent the issuance of levies
prior to 30 calendar days before initiating any levy action and managerial reviews.



7
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
8
  A centralized storage and administration of files that provides data and data access services of IRS data.
                                                                                                            Page 7
                Fiscal Year 2012 Statutory Review of Compliance With Legal
                              Guidelines When Issuing Levies



                                                                             Appendix II

                 Major Contributors to This Report

Frank J. Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Director
Deborah Smallwood, Audit Manager
Lynn Ross, Lead Auditor
Frank O’Connor, Senior Program Analyst
Shalin Basnayake, Auditor
Victor Taylor, Auditor




                                                                                      Page 8
                Fiscal Year 2012 Statutory Review of Compliance With Legal
                              Guidelines When Issuing Levies



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Field Collection, Small Business/Self-Employed Division SE:S:FC
Director, Collection Policy, Small Business/Self-Employed Division SE:S:CS:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 9
Fiscal Year 2012 Statutory Review of Compliance With Legal
              Guidelines When Issuing Levies



                                               Appendix IV

 Example of a Levy (Form 668-B)




                                                      Page 10
                 Fiscal Year 2012 Statutory Review of Compliance With Legal
                               Guidelines When Issuing Levies



                                                                             Appendix V

            Previous Audit Reports Related to This
                      Statutory Review

TIGTA, Ref. No. 1999-10-071, The Internal Revenue Service Has Not Fully Implemented
Procedures to Notify Taxpayers Before Taking Their Funds for Payment of Tax (Sept. 1999).
TIGTA, Ref. No. 2000-10-150, The Internal Revenue Service Has Significantly Improved Its
Compliance With Levy Requirements (Sept. 2000).
TIGTA, Ref. No. 2001-10-113, The Internal Revenue Service Complied With Levy Requirements
(Jul. 2001).
TIGTA, Ref. No. 2002-40-176, The Internal Revenue Service Has Improved Controls Over the
Issuance of Levies, But More Should Be Done (Sept. 2002).
TIGTA, Ref. No. 2003-40-129, The Internal Revenue Service Does Not Have Controls Over
Manual Levies to Protect the Rights of Taxpayers (Jun. 2003).
TIGTA, Ref. No. 2004-30-094, Additional Efforts Are Needed to Ensure Taxpayer Rights Are
Protected When Manual Levies Are Issued (Apr. 2004).
TIGTA, Ref. No. 2005-30-072, Taxpayer Rights Are Being Protected When Levies Are Issued
(Jun. 2005).
TIGTA, Ref. No. 2006-30-101, Fiscal Year 2006 Statutory Review of Compliance With Legal
Guidelines When Issuing Levies (Aug. 2006).
TIGTA, Ref. No. 2007-30-070, Fiscal Year 2007 Statutory Review of Compliance With Legal
Guidelines When Issuing Levies (Apr. 2007).
TIGTA, Ref. No. 2008-30-097, Fiscal Year 2008 Statutory Review of Compliance With Legal
Guidelines When Issuing Levies (Apr. 2008).
TIGTA, Ref. No. 2009-30-070, Fiscal Year 2009 Statutory Review of Compliance With Legal
Guidelines When Issuing Levies (May 2009).
TIGTA, Ref. No. 2010-30-068, Fiscal Year 2010 Statutory Review of Compliance With Legal
Guidelines When Issuing Levies (Jun. 2010).
TIGTA, Ref. No. 2011-30-036, Fiscal Year 2011 Statutory Review of Compliance With Legal
Guidelines When Issuing Levies (Mar. 2011).



                                                                                     Page 11
